PROOF OF SERVICE
I, Frederick W. Claybrook, Jr., a member of the bar of this Court, hereby certify
that on the 11th day of March, 2021, three (3) copies of the Brief Amici Curiae of
National Legal Foundation, et al., supporting granting the Petition in No. 20-1088,
David Carson, as Parent and Next Friend of O. C., et al., v. A. Pender Makin, were
served by first-class mail, postage pre-paid, on the following:
Counsel for Petitioners
Michael Eugene Bindas
Institute for Justice
600 University Street
Suite 1730
Seattle, WA 98101
Counsel for Respondent
Aaron Frey, Attorney General
Sarah A. Forster
Christopher C. Taub
Assistant Attorneys General
Office of the Attorney General
Six State House Station
Augusta, ME 04333-0006

/s/ Frederick W. Claybrook, Jr.
Frederick W. Claybrook, Jr.
Counsel of Record
Claybrook LLC
700 Sixth St., NW, Ste. 430
Washington, D.C. 20001
(202) 250-3833
rick@claybrooklaw.com

